No. 20-

IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The petitioner requests leave to file the attached petition for
writ of certiorari without payment of costs and to proceed in forma
pauperis. Pursuant to Wis. Stat. ยง977.06 and ยง977.07, the Wisconsin
State Public Defender found J.J.H. to be indigent and appointed
counsel to represent her in the Wisconsin circuit court, court of
appeals, and supreme court for this case. It also appointed the
undersigned counsel to represent J.J.H. on this petition for writ of
certiorari. A copy of the order of appointment is appended.

___________________________
Colleen D. Ball
Counsel of Record
WISCONSIN STATE PUBLIC DEFENDER
735 North Water Street, Suite 912
Milwaukee, WI 53202
(414) 227-3110

ballc@opd.wi.gov

ORDER APPOINTING COUNSEL
Client's Full Name:
Address:

Jennifer Hogan
Gladstone Home
310 Hemlock Court
South Milwaukee, WI 53172

In the Matter of the Condition of: JH

Client ID:

MAP1316678

SPD ID:

206702267Z

File No:

20S-67-A-P02267

Case Group #:

2201571

Date of Birth:

9/15/1998

DOC #:

Statutes:
Nature of Case:

51.61 Right to refuse medication

1 Cnts:

Chapter 51 Mental Commitment

1 Cnts:

County and Court:

Waukesha Circuit Court Br. 4

Other Information:

Judge:

Carter, Lloyd V.

Record Created:

July 1, 2020

Judgment Entered:

September 15, 2017

Type:

Re-Opening: U.S. Supreme Court

Case No:
17-ME-589

IN ACCORDANCE WITH CHAPTER 977 OF THE WISCONSIN STATUTES, I HEREBY APPOINT THE FOLLOWING
ATTORNEY TO REPRESENT THE ABOVE NAMED INDIVIDUAL IN RELATION TO THE ABOVE ENTITLED
PROCEEDINGS.
Attorney's Name:

Colleen D Ball

Local Counsel

Address:

735 N Water St Ste 912
Milwaukee, WI 53202 4105

SPD Office Handling: Milwaukee

State Bar No:

Phone Number:

1000729

Appointed By:

Katie R. York

Dated: July 1, 2020

(414) 227-4805
Office of the State Public Defender - Notice to Clients - File Retention Policy

When an attorney represents an individual, s/he makes and keeps a file of the documents and work done on the case. Attorneys on staff with the Office of the State
Public Defender (SPD) create and maintain such files for each case. This notice applies only to cases handled by staff attorneys of the Office of the State Public
Defender. If your case has been assigned to a private attorney, please consult that attorney about his or her file retention policy.
Upon the conclusion of the representation in this case, the SPD will, upon your request, deliver the original file or any portion requested, to you, along with any of
your original documents or other property that the SPD has in its possession.
If you do not request your file, the SPD will retain it for a period of at least five years after the matter is closed. At any point during this period, you may request
delivery of the file. If you do not request the file before the end of the five-year period, the SPD may, in its discretion, destroy the file and its contents without further
notice to you.

